HHS/OIG, Audit -"Review of Medicare Inpatient Wage Rate Assignment at Lehigh Valley
Hospital, Allentown, Pennsylvania,"(A-03-05-00003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Inpatient Wage Rate Assignment
at Lehigh Valley Hospital, Allentown, Pennsylvania," (A-03-05-00003)
April 10, 2006
Complete
Text of Report is available in PDF format (1.66 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine
whether Lehigh Valley Hospital (the hospital) complied with Medicare requirements for reporting
wage data in its FY 2003 Medicare cost report.  The hospital did not fully comply with
Medicare requirements for reporting wage data in its FY 2003 Medicare cost report.  Specifically,
the hospital misstated salaries and hours, which understated wage data by $37,798 and 15,326
hours; understated excluded area salaries and hours, which overstated wage data by $37,069
and 1,363 hours; overstated excluded contract services for intern and resident costs, which
understated wage data by $326; and overstated physician Part A hours, which overstated wage
data by 52 hours.  These errors occurred because the hospital did not sufficiently review
and reconcile wage data to ensure that all amounts reported were accurate, supportable, and
in compliance with Medicare regulations and guidance.  As a result, the hospital understated
its wage data by $1,055 and 13,911 hours for the FY 2003 Medicare cost report period.  Our
correction of the hospitals errors reduced the average hourly wage rate 0.23 percent
from $28.39 to $28.32.  We recommended that the hospital implement
review and reconciliation procedures to ensure that the wage data reported on future Medicare
cost reports are accurate, supportable, and in compliance with Medicare requirements.  The
hospital concurred with the findings and recommendation.